           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


 ADMINISTRATIVE COSTS CLAIMED BY
       THE IOWA DISABILITY
     DETERMINATION SERVICES

     April 2012   A-07-11-11184




 AUDIT REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                          SOCIAL SECURITY
MEMORANDUM

Date:      April 3, 2012                                                       Refer To:

To:        Carolyn L. Simmons
           Regional Commissioner
            Kansas City

From:      Inspector General

Subject:   Administrative Costs Claimed by the Iowa Disability Determination Services
           (A-07-11-11184)


           OBJECTIVE
           Our objectives were to evaluate the Iowa Disability Determination Services’ (IA-DDS)
           internal controls over the accounting and reporting of administrative costs, determine
           whether costs IA-DDS claimed were allowable and properly allocated and funds were
           properly drawn, and assess limited areas of the general security controls environment.
           Our audit included the administrative costs claimed by IA-DDS during Federal Fiscal
           Years (FY) 2009 and 2010.

           BACKGROUND
           The Disability Insurance (DI) program, established under Title II of the Social Security
           Act (Act), provides benefits to wage earners and their families in the event the wage
           earner becomes disabled. The Supplemental Security Income (SSI) program,
           established under Title XVI of the Act, provides payments to financially needy
           individuals who are aged, blind, and/or disabled.

           The Social Security Administration (SSA) is responsible for implementing policies for the
           development of disability claims under the DI and SSI programs. Disability
           determination services (DDS) in each State or other responsible jurisdiction perform
           determinations under both DI and SSI. Such determinations must be performed in
           accordance with Federal law and underlying regulations.1 In carrying out its obligation,
           each DDS is responsible for determining claimants’ disabilities and ensuring adequate
           evidence is available to support its determinations. To assist in making proper disability



           1
            Act §§ 221 and 1614, 42 U.S.C. §§ 421 and 1382c. See also 20 C.F.R. §§ 404.1601 et seq. and
           416.1001 et seq.
Page 2 – Carolyn L. Simmons


determinations, each DDS is authorized to purchase medical examinations, x rays, and
laboratory tests on a consultative basis to supplement evidence obtained from the
claimants’ physicians or other treating sources.

SSA reimburses the DDS for 100 percent of allowable reported expenditures up to its
approved funding authorization. The DDS withdraws Federal funds through the
Department of the Treasury’s (Treasury) Automated Standard Application for Payment
(ASAP) system to pay for program expenditures. Funds drawn down must comply with
Federal regulations 2 and intergovernmental agreements entered into by Treasury and
States under the Cash Management Improvement Act of 1990. 3

An advance or reimbursement for costs under the program must comply with Office of
Management and Budget (OMB) Circular A-87, Cost Principles for State, Local, and
Indian Tribal Governments. At the end of each quarter of the FY, each DDS is required
to submit a State Agency Report of Obligations for SSA Disability Programs (SSA-4513)
to account for program disbursements and unliquidated obligations.4 The SSA-4513
reports expenditures and unliquidated obligations for Personnel, Medical, Indirect, and
All Other Non-personnel costs. 5

The Iowa Vocational Rehabilitation Services (IVRS) is IA-DDS’ parent agency. IVRS is
a component in the Iowa Department of Education. IA-DDS is located in Des Moines,
Iowa.

RESULTS OF REVIEW
In general, IA-DDS’ internal controls over the accounting and reporting of administrative
costs were adequate to ensure costs claimed were allowable and properly allocated and
funds were properly drawn. However, we found that SSA was charged unallowable
indirect costs totaling $85,556 because of an error in the indirect cost rate calculation.
We also found IA-DDS disclosed disability claimants’ personally identifiable information
(PII) on forms where it was not necessary. Regarding general security controls, we
found IA-DDS did not have water leakage alarms in its computer server room.




2
    31 C.F.R. § 205.1 et seq.
3
    Pub. L. No. 101-453, 104 Stat. 1058, in part amending 31 U.S.C. §§ 3335, 6501, and 6503
4
 SSA, Program Operations Manual System (POMS), DI 39506.201 and 202. POMS, DI 39506.200 B.4
provides, in part, that “Unliquidated obligations represent obligations for which payment has not been
made. Unpaid obligations are considered unliquidated whether or not the goods or services have been
received.”
5
    SSA, POMS, DI 39506.201 and 202.
Page 3 – Carolyn L. Simmons


Indirect Costs

SSA was charged unallowable indirect costs totaling $85,556. This occurred because
the State FY 2010 indirect cost rate, approved by the United States Department of
Education (ED) and used by IVRS to charge indirect costs to SSA, was incorrectly
calculated. 6

The State FY 2010 indirect cost rate IVRS used to charge indirect costs to SSA and
other Federal and State agencies was incorrect because it improperly excluded an
adjustment that was required to correct previous unallowable indirect costs.
Specifically, during State FYs 2002 through 2006, the indirect cost rates used to charge
indirect costs to SSA and other Federal and State agencies included unallowable costs
totaling $351,164. The $351,164 in unallowable costs resulted from IVRS claiming
incentive payments under Iowa’s Early-Out Retirement Plan without ED’s approval.
Therefore, ED retroactively determined the costs were unallowable and should not have
been included in the indirect cost rate calculations for State FYs 2002 through 2006.

ED and IVRS previously agreed to correct the unallowable indirect costs charged to
SSA and other Federal and State agencies by reducing the indirect costs used to
calculate the State FY 2008 and 2010 indirect cost rates by $175,582, respectively
(totaling the $351,164).

We found that the indirect costs ED used to calculate the indirect cost rate for State
FY 2008 were properly reduced by $175,582. However, when calculating the State
FY 2010 indirect cost rate, ED did not reduce the indirect costs by the $175,582.
Accordingly, SSA was charged unallowable indirect costs totaling $85,556. 7

Since the indirect cost rate agreement affects other Federal agencies, it is not practical
for IVRS to repay the unallowable indirect costs to SSA when other Federal agencies
will have their repayment captured through the indirect cost adjustment. So, to properly
exclude the unallowable indirect costs for all Federal agencies affected, ED plans to
reduce the indirect costs used in the rate calculation for State FY 2014 to account for




6
  Each State FY, ED negotiates and approves the indirect cost rate used by IVRS to charge indirect costs
to Federal agencies including SSA. IVRS computes the indirect costs charged to SSA each State FY by
applying the ED approved indirect cost rate to an approved cost base.
7
 The State FY begins on July 1 and ends on June 30. Therefore, State FY 2010 encompassed portions
of Federal FY 2009 (July 1 through September 30, 2009) and Federal FY 2010 (October 1, 2009 through
July 30, 2010). Therefore, the $85,556 in unallowable indirect costs to SSA included $20,468 in
unallowable charges to SSA in Federal FY 2009 and $65,088 in unallowable charges to SSA in Federal
FY 2010.
Page 4 – Carolyn L. Simmons


the remaining $175,582 in unallowable indirect costs. In doing so, the indirect costs
charged to SSA in Federal FYs 2013 and 2014 will be reduced by approximately
$85,556. 8

We recommend the Regional Commissioner ensure the $175,582 adjustment for
unallowable costs is included in the State FY 2014 indirect cost rate approved by ED.

Personally Identifiable Information

IA-DDS unnecessarily included disability claimants’ PII on correspondence with third
parties. IA-DDS processes over 34,000 disability determinations each FY. During the
disability determination process, IA-DDS mails interpretation service forms and claimant
travel invoices. We found that these documents contained PII including name; address;
date of birth; telephone number; and, most notably, Social Security number (SSN).

Although we have no reason to believe this information was misused, this practice could
result in abuse of claimants’ PII. Federal guidance dictates that agencies should reduce
their holdings of all PII to the minimum necessary to properly perform a documented
agency function. 9 Agencies must also review their use of SSNs in agency systems and
programs to identify instances in which collection or use of the SSN is superfluous.10
On October 5, 2007, SSA’s Office of Disability Determinations informed regional offices
that DDSs should review their processes to eliminate the use of the SSNs on
correspondence, where possible.

Given the prevalence of identity theft, we see no reason for PII to be included on such
documents as interpretation service forms and travel invoices. We recommend the SSA
Regional Commissioner remind the IA-DDS to limit the disclosure of PII in third-party
correspondence, where possible.




8
  We report an approximate reduction in indirect costs of $85,556. The actual reduction in indirect costs
could be more or less depending on SSA’s indirect cost base amount used to compute the actual indirect
costs for FYs 2013 and 2014. SSA will know by July 2013 if the approved rate includes the adjustment.
However, SSA will not know the total amount of the reduction in indirect costs until after the end of State
FY 2014 because SSA’s indirect cost base will not be known until July 2014. SSA’s indirect cost base
consists of the IA-DDS’ costs claimed on the SSA-4513 less equipment purchases and medical costs so,
the base can fluctuate each FY with changes in costs. However, we have no reason to believe that
IA-DDS’ costs will materially fluctuate by July 2014.
9
  OMB Memorandum M-07-16, Safeguarding Against and Responding to the Breach of Personally
Identifiable Information, Attachment 1 § B.1.a (page 2) indicates a few simple and cost-effective steps to
reduce risks related to a data breach of PII, such as limiting access to only those individuals who must
have such access. Access is defined as the ability or opportunity to gain knowledge of PII.
10
  OMB Memorandum M-07-16, Safeguarding Against and Responding to the Breach of Personally
Identifiable Information, Attachment 1 § B.2.a.
Page 5 – Carolyn L. Simmons


Water Leakage Alarms in Computer Server Room

IA-DDS’ computer server room did not have the water leakage alarms required by
SSA’s instructions. The lack of water leakage alarms could result in damage to
IA-DDS’ computer server equipment. We recommend the Regional Commissioner
instruct IA-DDS to install water leakage alarms in the computer server room to meet
SSA’s requirement.

CONCLUSION AND RECOMMENDATIONS
In general, IA-DDS’ internal controls over the accounting and reporting of administrative
costs were adequate to ensure costs claimed were allowable and properly allocated and
funds were properly drawn. However, we found that SSA was charged unallowable
indirect costs totaling $85,556 because of an error in the indirect cost rate calculation.
We also found IA-DDS disclosed disability claimants’ PII on forms where it was not
necessary. Regarding general security controls, we found IA-DDS did not have water
leakage alarms in the computer server room. Accordingly, we recommend the SSA
Regional Commissioner:

1. Ensure the $175,582 adjustment for unallowable costs is included in the State
   FY 2014 indirect cost rate approved by ED.

2. Remind the IA-DDS to limit the disclosure of PII in third-party correspondence,
   where possible.

3. Instruct IA-DDS to install water leakage alarms in the computer server room to meet
   SSA’s requirement.

AGENCY COMMENTS
SSA and IVRS agreed with our recommendations. See Appendices C and D.




                                        Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Agency Comments
APPENDIX D – Iowa Vocational Rehabilitation Services Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                                Appendix A

Acronyms
Act           Social Security Act
ASAP          Automated Standard Application for Payment
C.F.R.        Code of Federal Regulations
DDS           Disability Determination Services
DI            Disability Insurance
ED            United States Department of Education
FY            Fiscal Year
IA-DDS        Iowa Disability Determination Services
IVRS          Iowa Vocational Rehabilitation Services
OIG           Office of the Inspector General
OMB           Office of Management and Budget
PII           Personally Identifiable Information
POMS          Program Operations Manual System
Pub. L. No.   Public Law Number
SSA           Social Security Administration
SSA-4513      State Agency Report of Obligations for SSA Disability Programs
SSI           Supplemental Security Income
SSN           Social Security Number
Treasury      Department of the Treasury
U.S.C.        United States Code
                                                                       Appendix B

Scope and Methodology
SCOPE
To achieve our objective, we:

•   Reviewed applicable Federal laws and regulations, pertinent parts of the Social
    Security Administration’s (SSA) Program Operations Manual System, and other
    criteria relevant to administrative costs claimed by the Iowa Disability Determination
    Services (IA-DDS) and the drawdown of SSA program appropriations.

•   Interviewed staff at the Iowa Vocational Rehabilitation Services (IVRS) and IA-DDS.

•   Reviewed State policies and procedures related to Personnel, Medical, Indirect, and
    All Other Non-personnel costs.

•   Evaluated, tested, and documented internal controls regarding accounting, financial
    reporting, and cash management activities.

•   Reconciled State accounting records to the administrative costs reported by IA-DDS
    on the State Agency Report of Obligations for SSA Disability Programs (Form
    SSA-4513) for Federal Fiscal Years (FY) 2009 and 2010.

•   Examined specific administrative expenditures (Personnel, Medical, and All Other
    Non-personnel costs) incurred and claimed by IA-DDS for FYs 2009 and 2010 on
    the Form SSA-4513. We used statistical sampling to select expenditures to test for
    support of the Medical and All Other Non-personnel costs, as discussed in the
    Methodology section.

•   Determined whether IA-DDS was meeting SSA’s DDS Office Space Allocation
    standards.

•   Examined the indirect costs claimed by IA-DDS for FYs 2009 and 2010.

•   Reviewed the State FY 2010 indirect cost rate proposal to ensure compliance and
    fairness in the formulation of the indirect cost rate.

•   Compared the amount of SSA funds drawn to support program operations to the
    expenditures reported on the Form SSA-4513.

•   Determined whether selected funds from canceled warrants were properly returned
    to SSA.


                                           B-1
•   Determined whether unliquidated obligations were properly supported.

•   Reviewed IA-DDS’ general security controls.

•   Reviewed IA-DDS’ adherence to Office of Management and Budget guidance
    related to safeguarding personally identifiable information.

We determined the data provided by IVRS and IA-DDS used in our audit were
sufficiently reliable to achieve our audit objectives. We assessed the reliability of the
data by reconciling them with the costs claimed on the Form SSA-4513. We also
conducted detailed audit testing on selected data elements in the electronic data files.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives. We conducted fieldwork from May through November 2011.

METHODOLOGY
SAMPLING METHODOLOGY

The sampling methodology encompassed the four general areas of costs reported on
the SSA-4513: (1) Personnel, (2) Medical, (3) Indirect, and (4) All Other Non-personnel
costs. We obtained a data extract of all costs and the associated invoices for FYs 2009
and 2010 for use in statistical sampling. We obtained this from the accounting systems
used in preparing the Form SSA-4513.

Personnel Costs

We reconciled IA-DDS’ personnel costs to the Form SSA-4513. We then randomly
selected 1 pay period, with a pay period end date of July 8, 2010, for further review. We
then selected a random sample of 50 regular employees and all 34 medical consultants
for additional review and testing of their payroll records for the pay period ended
July 8, 2010.

Medical Costs

We sampled 100 items (50 items each from of FYs 2009 and 2010) using a stratified
random sample of medical costs based on the proportion of medical evidence of record
and consultative examination costs to the total medical costs claimed.




                                           B-2
Indirect Costs

IA-DDS indirect costs were computed by applying a federally approved rate to a cost
base. 1 This methodology was approved by the United States Department of Education,
which is the Federal agency designated to negotiate and approve the indirect cost rate.
On the Forms SSA-4513, IA-DDS claimed indirect costs of $1,456,835 for FY 2009 and
has $1,652,871 in indirect costs obligated for FY 2010. We reviewed IVRS’ State
FY 2010 indirect cost proposal to ensure it was fair and equitable. We compared the
indirect cost proposal to the associated rate for State FY 2010. We reviewed the
FY 2009 and 2010 indirect cost calculations to ensure the correct rate was applied.

All Other Non-personnel Costs

We sampled 105 items (53 expenditures from FY 2009 and 52 from FY 2010) using a
stratified random sample. The random sample was based on the proportion of costs in
each of the cost categories to the total costs claimed.




1
 For FY 2010, the indirect cost calculation was Personnel costs plus All Other Non-personnel cost minus
Equipment Purchases times the indirect cost rate plus direct charges for DDS staff that retired under the
State Employee Retirement Incentive Program.


                                                  B-3
                                                                             Appendix C

Agency Comments

March 08, 2012
Signed Draft Report (A-07-11-11184) - Kansas City Response

To:          Inspector General

From:        Regional Commissioner
             Kansas City

Subject: Administrative Costs Claimed by the Iowa Disability Determination Services
         (A-07-11-11184) - Response


We appreciate the opportunity to present the regional views concerning the facts and
reasonableness of the recommendations.

1. Ensure the $175,582 adjustment for unallowable costs is included in the State FY 2014
   indirect cost rate approved by ED.

      We agree with the finding and the Region will ensure the adjustment is made in the State FY
      2014 indirect cost rate agreement. We believe, however, that there is a misstatement in
      Footnote #8 under this finding. The statement should be revised to reflect SSA will know by
      July 2013 if the approved rate includes the adjustment, but that SSA will not know the total
      amount of the reduction in indirect costs until after the end of State FY 2014 (June 2014).

2. Remind the IA-DDS to limit the disclosure of PII in third-party correspondence, where
   possible.

      We agree with the finding and the Region will work with the DDS to ensure appropriate
      actions are taken to limit disclosure of PII on DDS correspondence.

3. Instruct IA-DDS to install water leakage alarms in the computer server room to meet SSA’s
   requirement.

      We agree with the finding and the Region is working with the DDS to identify devices to
      meet this need and with Office of Disability Determinations to request funding.

If you have questions, please contact me at 816-936-5700. Staff with questions may contact
Janet Shivers, Director, Center for Disability Programs, at 816-936-5742.

                                                /s/
                                          Carolyn L. Simmons
                                                                                     Appendix D

Iowa Vocational Rehabilitation Services Comments


March 13, 2012
Signed Draft Report (A-07-11-11184)

Dear Mr. Bailey,

Iowa Vocational Rehabilitation Services has no additional comments to make in
reference to the draft report, Administrative Costs Claimed by the Iowa Disability
Determination Services (A-07-11-11184). We accept the recommendations.

Thank you.


David Mitchell, MS, CRC
IVRS Administrator


Notice to Recipient: This electronic mail transmission, including attachments, may contain information
from Iowa Vocational Rehabilitation Services (IVRS) that is privileged, confidential, or proprietary and may
be subject to protection under the law, including the Health Insurance Portability & Accountability Act
(HIPAA). This information is solely for the intended recipient(s). If you are not the intended recipient, you
are notified that any review, use, dissemination, distribution, copying, or storing of the e-mail or its
contents is strictly prohibited. If you have received this e-mail in error, please contact the sender
immediately by replying to the e-mail and delete this message from your computer and system. Thank
you for your cooperation.
                                                                         Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Mark Bailey, Director, Kansas City Audit Division

   Kenneth Bennett, IT Specialist, Kansas City Audit Division

Acknowledgments

In addition to those named above:

   Nicholas Moore, Auditor-in-Charge

For additional copies of this report, please visit our Website at http://oig.ssa.gov/ or
contact the Office of the Inspector General’s Public Affairs Staff at (410) 965-4518.
Refer to Common Identification Number A-07-11-11184.
                             DISTRIBUTION SCHEDULE
Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
 Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
 Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions and
Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
